HHS/OIG, Audit - "Audit of National Association of Families and Addiction Research Education (NAFARE) Chicago, Illinois Contract No. 277-94-3009 and Grant  No. UHSP08041," (A-05-01-00040)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of National Association of Families and Addiction Research Education
(NAFARE) Chicago, Illinois - Contract No. 277-94-3009 and Grant No. UHSP08041,"
(A-05-01-00040)
December 27, 2001
Complete
Text of Report is available in PDF format (231 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report provides the results
of our audit of Contract No. 277-94-3009; entitled the National Resource Center
for the Prevention and Treatment of Alcohol, Tobacco and Other Drug Abuse and
Mental Illness in Women, and Grant No. UHSPO8041, entitled the Child Study Center
Behavioral Health Project, for two year audit periods ending June 30, 1999 and
September 29, 1999, respectively.  Based
on procedures agreed upon with officials from the Substance Abuse and Mental
Health Services Administration (SAMHSA), we audited costs incurred amounting
to $942,608 for the contract and $847,043 for the grant.  In relation to
the contract, we are questioning costs of $34,994 based on a lack of adequate
accounting records or approved cost limits being exceeded.  Related indirect
costs of $9,488 was also questioned, while we express no opinion on the remaining
balance of $104,505, which was  not adequately supported.   Since
grant documentation was not available to support the allowability of $847,043
in costs incurred during the audit period, we are unable to express an opinion
on these costs.  We discussed the results of our review with  NAFARE
officials, who agreed with our audit results.  A summary of the costs claimed
and the auditor's recommendations for each of the cost categories was provided
to SAMHSA.